     Department of Homeland Security





           FEMA’s Decisions to Replace 

           Rather than Repair Buildings 

             at the University of Iowa 





DD-12-17                                    June 2012

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                       Washington, DC 20528 / www.oig.dhs.gov




                                      June 19, 2012


MEMORANDUM FOR:
                                                         rator, Region VII
                                                                     ent Agency

FROM:
                                   Assistant Inspector Gen ral
                                   Office of Emergency Management Oversight

SUBJECT:                           FEMA's Decisions to Replace Rother than Repair
                                   Buildings at the University of Iowa
                                   FEMA Disaster Number 1763-DR-IA
                                   Audit Report Number DD-12-17

We audited Federal Emergency Management Administration (FEMA) Region VII's decisions
to fund the replacement, rather than the repair, of flood-damaged buildings at the University
of Iowa (University) (Public Assistance Identification Number 103-03027-00). We initiated
this audit based on an anonymous complaint we received that FEMA Region VII did not
correctly decide to replace University buildings. Our audit objective was to determine
whether Region VII correctly applied the "50 Percent Rule" when deciding to fund
replacement, rather than repair, of two University buildings following the 2008 Iowa River
flood. Generally, FEMA can decide to fund the replacement of a damaged facility when
repair costs exceed 50 percent of replacement costs or if the facility is destroyed.

The University received an award of $475 million from the Iowa Homeland Security and
Emergency Management Division (IHSEMD), a FEMA grantee, for damages caused by
flooding that occurred during the period May 25, to August 13, 2008. The award provided
90 percent FEMA funding. The audit covered the period May 25, 2008, through August 24,
2011, the cutoff date of our audit, and included a review of two building replacement
approvals FEMA Region VII made totaling $296.69 million (see Exhibit A, Schedule of
Replacement Projects Reviewed).'




1 At the cutoff date of our audit, FEMA had not ful ly obligated the replacement of these buildings. However, on

January 11, 2012, FEMA fully obligated these replaceme nts, and amounts in this report reflect these new
obligations.
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this performance audit between July 2011 and April 2012 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit according to the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA and IHSEMD officials, reviewed repair and replacement cost
   estimates, visited the flood-damaged Hancher Voxman-Clapp (HVC) building complex,
   and performed other procedures considered necessary to accomplish our objective. We
   did not assess the adequacy of FEMA’s internal controls applicable to making the repair
   or replacement decisions under the 50 Percent Rule because it was not necessary to
   accomplish our audit objective. We did, however, gain an understanding of FEMA
   Region VII’s method of estimating costs for deciding whether to fund the repair or
   replacement of damaged facilities.


                                       BACKGROUND

   Beginning in late May 2008, catastrophic flooding occurred along the Cedar River and
   Iowa River, inundating portions of the University along the Iowa River for weeks. As
   part of the recovery process, FEMA worked with IHSEMD and the University to decide
   whether FEMA should fund the repair or replacement of damaged structures. Deciding
   whether to fund repair or replacement of damaged structures can be complicated, and
   mistakes can result in serious financial consequences.




www.oig.dhs.gov                              2                                            DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




           The Iowa River (left) flooded the University of Iowa Hancher Voxman-Clapp
           building complex.

   Hancher Voxman-Clapp

   The HVC complex consists of the Hancher Auditorium, a multistory auditorium with
   balconies; the Voxman Music School, a two-story building including classrooms and
   recital rooms; and the Clapp Recital Hall, a two-story auditorium. The three buildings
   total approximately 300,000 square feet. The floodwaters reached a depth of
   approximately 5½ feet above the surrounding exterior of the buildings, inundating the
   basement level that housed the heating, cooling, ventilation, and electrical systems of
   the complex and flooding the ground floors to approximately 18 inches. Although site
   inspections identified no structural damage, the flooding damaged the interior
   architecture, including floor finishes, acoustical features and equipment, doors and
   frames, elevators, and shared mechanical and electrical equipment and systems. The
   flooding also damaged special stage, theater, and musical materials and equipment.

   Art Building East

   The Art Building East consists of (1) the North Area Buildings, which include the Main Art
   Building, the Grant Wood Studio, and the North Building Addition; and (2) the South
   Area Buildings, which include the Ceramics and Metalworking Buildings. Square footage


www.oig.dhs.gov                                3                                             DD-12-17
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   for all these buildings totaled approximately 92,000 square feet. Floodwaters inundated
   the basements; however, the first floor of the Main Art Building did not flood, and only a
   300-square-foot area of the first floor of the North Building Addition flooded. The first
   floor of the South Area Buildings, built at a lower elevation, flooded to 48 inches. Like
   HVC, these buildings experienced damage to floor finishes, walls, doors and frames,
   elevator, and the mechanical and electrical equipment and systems.

   The “50 Percent Rule”

   According to Federal regulation 44 CFR 206.226(f)(1), “A facility is considered repairable
   when disaster damages do not exceed 50 percent of the cost of replacing a facility . . . .”
   FEMA refers to this regulation as the “50 Percent Rule” and implements it according to
   its Disaster Assistance Policy 9524.4. This policy provides the decision-making tool to
   determine whether FEMA should fund the repair or replacement of a disaster-damaged
   facility. 2 The application of this tool compares certain repair costs to certain
   replacement costs and results in a fraction that expresses repair costs as a percentage of
   replacement costs. The calculation specifically excludes many otherwise allowable
   repair and replacement costs that FEMA will ultimately pay under the Public Assistance
   program.

   FEMA policy excludes these costs because including them in the repair or replacement
   decision calculation could distort the results. For example, according to FEMA, if the
   repair side of the calculation included seismic upgrade costs to undamaged elements of
   the building, then the repair costs of older buildings with even minor damage could
   exceed the 50 percent cost threshold because of the comparatively high cost of code-
   triggered whole-building upgrades, seismic upgrading, and so on.

   FEMA bases its exclusion of certain costs on the premise that, when a facility is so
   severely damaged (not including code-triggered whole-building upgrades) that the cost
   to repair the damage exceeds 50 percent of the cost of a new building, it is often
   justifiable and reasonable to replace the building. However, including certain code-
   triggered whole-building upgrade costs with the costs of the repairs to the damaged
   elements would likely cause erroneous decisions to fund new facilities rather than
   repair structurally sound and lightly damaged facilities.




   2
     Federal regulation 44 CFR 206.226(f)(1) is clarified under various FEMA policies and publications,
   including Public Assistance Guide, FEMA 322, p. 36, June 2007; Public Assistance Policy Digest, p. 113,
   January 2008; and Disaster Assistance Policy, DAP9524.4, September 24, 1998. FEMA updated DAP9524.4
   on March 25, 2009.


www.oig.dhs.gov                                      4                                                  DD-12-17
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Specifically, the numerator of the fraction includes only the direct costs of repairing the
   disaster damage, referred to as "hard” costs,3 and may include costs associated with the
   current repair codes and standards that apply to the damaged elements only. The
   numerator does not include costs associated with the following:

       a.   Upgrades and other elements triggered by codes and standards;
       b.   Design associated with upgrades;
       c.   Demolition of entire facility;
       d.   Site work;
       e.   Applicable project management costs;
       f.   Contents; and
       g.   Hazard mitigation measures.

   The denominator of the fraction is the cost of replacing the facility based on its
   predisaster design and according to applicable codes and standards currently in effect.
   These codes and standards may relate to structural elements such as mechanical or
   electrical systems, or the size of a structure. The denominator does not include costs
   associated with the following:

       a.   Demolition;
       b.   Site work;
       c.   Applicable project management costs;
       d.   Contents; and
       e.   Hazard mitigation measures.

   Deciding to repair a facility may not necessarily result in cost savings to taxpayers after
   all allowable costs under the Public Assistance program are included. However, FEMA
   caps the total repair costs at the estimated cost to replace the facility.


                                             RESULTS OF AUDIT

   FEMA Region VII officials did not correctly apply the 50 Percent Rule when deciding to
   replace HVC, and their decision to replace Art Building East was unsupported and likely
   based on inaccurate cost data. The HVC replacement decision stemmed from flawed
   calculations and unsupported replacement cost estimates. Rather than developing the

   3
    Only direct construction costs, or “hard” costs, can be included in the numerator or denominator of
   either the repair or the replacement costs. “Soft” costs include the costs for project management,
   architectural fees, cost escalation, and profit. However, for simplicity, dollar amounts in the body of the
   report refer to both hard and soft costs unless otherwise noted.


www.oig.dhs.gov                                         5                                                        DD-12-17
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   detailed scope of work and itemized costs required by FEMA’s Cost Estimating Format
   (CEF), Region VII Joint Field Office officials estimated replacement costs of the HVC by
   entering basic square-foot data, along with other general factors, into an off-the-shelf
   cost-estimating program. However, the use of this cost-estimating program in this
   circumstance was not only contrary to the FEMA CEF Instructional Guide, it was also
   inappropriate because this program was not designed to estimate costs for buildings of
   the size or complexity of HVC.

   The problems with the off-the-shelf cost-estimating tool are best illustrated by the fact
   that, by using that tool, FEMA originally estimated HVC’s replacement cost at $42.56
   million; however, today FEMA estimates the HVC replacement cost at $220.42 million.
   Similarly, FEMA originally estimated the Art Building East’s replacement cost at $15.697
   million; but today, FEMA estimates the cost at $76.27 million. Additionally, FEMA
   officials could not provide the documentation supporting their original replacement cost
   estimates for both buildings. The documents had been stored at the FEMA Iowa
   Recovery Center rather than the FEMA Regional Office.

   This misapplication of the 50 Percent Rule occurred primarily because, in late 2008,
   IHSEMD, University, and FEMA officials rushed FEMA Region VII cost-estimating staff to
   develop the cost estimates. The misapplication also occurred, in part, because FEMA
   Region VII did not have policies, procedures, and review standards to address the
   special concerns and precautions FEMA should have followed in making repair or
   replacement decisions on large, complex projects.

   In early 2012, FEMA officials provided detailed cost estimates for HVC and Art Building
   East that continued to include unallowable code-triggered upgrades. However, FEMA
   officials continued to assert that they properly decided to replace, rather than repair,
   the buildings. In written comments to a draft of this report, FEMA officials also
   presented new criteria—the facilities were destroyed—to support their replacement
   decisions. 4 For the reasons discussed in this report, we disagree with FEMA’s assertion
   that it properly applied the 50 Percent Rule. Therefore, this report recommends that
   FEMA Region VII officials take the following actions:

       1.	 Suspend the replacement decisions for the Hancher Voxman-Clapp building and
           the Art Building East.

   4
     In FEMA’s written comments, it stated that the Regional Administrator required the relocation of the
   HVC and the Art Building East facilities to new site(s) outside the floodplain, pursuant to 44 CFR
   206.226(g). 44 CFR 206.226(g) states that the Regional Director may approve funding for and require
   restoration of a destroyed facility at a new location when (i) the facility is and will be subject to repetitive
   heavy damage; (ii) the approval is not barred by other provisions of title 44 CFR; and (iii) the overall
   project, including all costs, is cost effective.


www.oig.dhs.gov                                           6	                                                      DD-12-17
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



       2.	 Develop cost-estimating policies and procedures and review standards to
           address cost estimating for large and technically complex projects under the 50
           Percent Rule.

       3.	 Deobligate $61,684,880 ($55,516,392 Federal share) from the Hancher Voxman-
           Clapp building (Project 10367) and put those Federal funds to better use.

       4.	 Deobligate $22,060,714 ($19,854,643 Federal share) from Art Building East
           (Project 1587) and put those Federal funds to better use.

   November 2008 HVC and Art Building East Repair and Replacement Estimates

   FEMA significantly underestimated the cost to replace the HVC, which ultimately led to
   FEMA’s improper decision to replace the building under the 50 Percent Rule. On Friday,
   November 14, 2008, Region VII’s Joint Field Office cost-estimating team received the
   direction that they had to finalize preliminary repair or replacement estimates on six
   large University facilities for presentation to the University the following Monday,
   November 17. Because of those time constraints, the team developed its estimates
   without the benefit of site visits or a detailed scope of work and relied on gross square
   footage estimates and aerial photos, rather than descriptions of damage based on the
   detailed construction documents. They calculated the HVC replacement cost estimate
   using the gross square footage of the buildings with an off-the-shelf cost-estimating
   program.5 Additionally, the replacement estimate did not consider the many special
   architectural, acoustical, and mechanical characteristics of the HVC building.

   As shown in figure 1, this initial November 2008 50 Percent Rule calculation resulted in
   an HVC 50.1 percent ratio based on a $21.34 million repair estimate and a $42.56
   million replacement estimate. This repair vs. replacement cost ratio barely exceeded
   the 50 percent minimum requirement threshold for replacement. Similarly, as shown in
   figure 2, the Art Building East calculation resulted in a 50.9 percent ratio based on a
   $7.984 million repair estimate and a $15.697 million replacement estimate. Again, this
   ratio barely exceeded the 50 percent minimum replacement requirement. The HVC
   calculation not only used general and incomplete cost data, but also included hard and
   soft costs, whereas only hard costs should be considered in these calculations. Because
   FEMA Region VII officials considered these calculations preliminary, they did not make
   their replacement decisions based on these estimates.

   5
    The cost estimating team used the RSMeans CostWorks Square Foot Calculator model for facilities of like
   kind, size, and capacity. However, the Square Foot Calculator is a user-friendly tool designed for quick
   “conceptual estimates,” and is not a substitute for detailed cost estimating.


www.oig.dhs.gov                                       7	                                                 DD-12-17
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   December 2008 HVC Repair and Replacement Estimates

   Several weeks later, a Region VII Building Assessment Team visited the damaged
   buildings to develop information for re-estimating repair costs and, as a result,
   increased the HVC estimated repair costs from $21.34 million to $26.3 million. Then,
   Region VII officials reduced the updated repair estimate of $26.3 million and the original
   replacement estimate of $42.56 million by 32 percent because they believed the 32
   percent represented the soft costs that are not supposed to be included in the repair or
   replacement decision. Thus, as shown in figure 1, Region VII officials arrived at a 61.8
   percent ratio of repair costs to replacement costs by comparing the adjusted repair cost
   estimate of $17.87 million to the adjusted replacement cost estimate of $28.94 million
   to support its December 21, 2008, decision to approve funding replacement of HVC.

   Based on interviews and reviews of FEMA and IHSEMD files, the December 2008 HVC
   replacement cost estimate that Region VII staff relied upon to approve the replacement
   of HVC had many deficiencies:

       1.	 Contrary to FEMA policy, FEMA did not use the CEF to develop its cost estimate,6
           but rather used gross square footage data and did not use estimates of detailed
           line-item costs based on available original construction drawings. FEMA uses the
           CEF tool to estimate the cost of constructing large projects across the entire
           range of eligible permanent work. FEMA should have calculated both the repair
           and replacement cost estimates using a clear, concise, and complete scope of
           work along with a description of all individual activities needed to perform the
           work. The FEMA CEF Instructional Guide provides specific direction for using the
           CEF in the 50 Percent Rule calculations.

       2.	 The RSMeans Square Foot Calculator program was not appropriate to estimate
           the replacement cost of large buildings like HVC. The RSMeans Square Foot
           Calculator clearly warns users not to use the software when “parameters are not
           within the ranges recommended by RSMeans.”

       3.	 The RSMeans Square Foot Calculator did not address the unique qualities and
           complexities of the HVC building, but rather considered only broad construction
           parameters.

       4.	 The RSMeans Square Foot Calculator estimated replacement costs that were so
           unreasonably low ($142 per square foot for hard and soft costs) that Region VII

   6
    “Implementation of Cost Estimating Format (CEF) in the Public Assistance Program Module of NEMIS,”
   March 1, 2007, David Garratt memorandum to Regional Directors/Acting Regional Director Regions I–X.


www.oig.dhs.gov                                      8	                                                  DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           cost estimators should have realized that it understated the true HVC
           replacement cost.

       5.	 Region VII staff did not compare the RSMeans-generated replacement cost with
           the estimate that the University provided to FEMA before the December 2008
           decision, indicating an estimated replacement cost of $350 per square foot (hard
           and soft costs). FEMA received these University estimates before it finalized the
           cost estimates.

       6.	 Region VII staff did not compare the RSMeans-generated replacement cost with
           available comparable construction costs for similar buildings, which ranged from
           $373 to $577 per square foot (for hard and soft costs).

       7.	 The assumption made by Region VII staff that they could remove the soft costs
           from the total repair and replacement costs by reducing them both by 32
           percent was not appropriate because soft costs for replacement estimates are
           generally higher than those for repair estimates.

       8.	 The Region VII Technical Assistance Contractor who prepared the replacement
           estimate did not visit the flood-damaged HVC building before preparing his
           estimates.

   Post-2008 HVC Repair and Replacement Estimates

   As shown in figure 1, on November 6, 2009, Region VII adjusted the repair vs.
   replacement ratio to 54.2 percent. Region VII arrived at this ratio by applying the CEF,
   which used detailed line-item cost estimates that almost doubled its HVC replacement
   cost estimate from $42.56 million to $84.5 million. At the same time, Region VII also
   increased its repair estimate by adding $27.1 million in triggered hazard mitigation
   costs. Region VII asserted that the upgrades were necessary to comply with current
   codes and standards and, thus, were allowed on the repair side of the 50 percent
   calculation. However, Region VII was incorrect because these upgrades were hazard
   mitigation upgrades that were triggered by the floodplain manager’s determination that
   the buildings were “substantially damaged.”

   According to both FEMA senior management and some staff at the Iowa Closeout
   Center, Region VII’s decision to include the hazard mitigation upgrade costs in the repair
   vs. replacement ratio was improper because the 50 Percent Rule specifically precludes
   triggered upgrades in its calculation. Specifically, in April 2007, FEMA’s Acting Assistant
   Administrator, Disaster Assistance Directorate, said in a memorandum to the Associate
   Deputy Administrator for Gulf Coast Recovery that triggered provisions are “not


www.oig.dhs.gov                                 9	                                           DD-12-17
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   considered when determining if the damaged structure is eligible for replacement
   pursuant to . . . the 50 percent rule.” Consequently, on April 13, 2011, cost estimation
   staff at FEMA’s Iowa Closeout Center removed the code-triggered upgrades from the
   repair side of the fraction, resulting in 50 Percent Rule ratios of 21.1 percent and 19.4
   percent.

   In April 2011, struggling over the 50 Percent Rule calculation, Region VII’s Public
   Assistance Branch Chief asked the FEMA Acting Director, Public Assistance Division,
   Recovery Directorate, whether FEMA Region VII could take another approach when
   calculating the 50 Percent Rule and consider provisions of 44 CFR Part 9, Floodplain
   Management and Protection of Wetlands, in deciding whether these costs were
   allowable. 7 The Acting Director agreed with the Branch Chief, and responded that “the
   measures triggered under 9.11(d)(3) due to the determination of substantial damage by
   the floodplain manager are considered codes and standards compliance requirements”
   and are “appropriately considered part of the repair costs for the purposes of
   determining eligibility for replacement assistance under the 50% rule.” Although this is
   a novel approach to an attempt to justify the replacement of the HVC, that
   determination contradicts FEMA policy that specifically excludes triggered upgrades in
   the calculation.

   As an additional complication, in 2009, when the Iowa Department of Natural
   Resources, as floodplain manager, determined that the HVC building was “substantially
   damaged” and therefore required hazard mitigation upgrades to perform the repairs,
   the floodplain manager made the determination incorrectly by using FEMA’s $42.56
   million replacement cost instead of predisaster fair market value, as required.8

   Incorrect as it was, the floodplain manager’s decision was irrelevant anyway because
   the triggered hazard mitigation, even if required, is not allowed in the repair calculations
   under the 50 Percent Rule.




   7
    44 CFR Part 9.11(d)(3).

   8
    44 CFR 59.1 – Definitions. “Substantial damage means damage of any origin sustained by a structure

   whereby the cost of restoring the structure to its before-damaged condition would equal or exceed 50

   percent of the market value of the structure before the damage occurred.” [emphasis added] 



www.oig.dhs.gov                                      10                                                    DD-12-17
                                           OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Figure 1: Comparison of Region VII’s Calculations for HVC to Calculations Per the
   50 Percent Rule

                                                            HVC Complex
                                                    Time-line of 50% Calculations
              180
                                                                                                      47.7% 32.9%

              160                                                                                                     52.3% 35.6% 53.5%      35.0%

              140

              120

               100                                   54.2%    22.2%          21.1%            19.4%
     $ Millions
                80

               60         50.1%


               40                           61.8%

               20

                  0
                        Nov '08            Dec '08          Nov '09        Apr '11          Apr '11         Jul '11       Sep '11        Dec '11
                      No supporting                 Increased repair and           Increased replacement.         Reduced replacement.
                      details available.            replacement. Region            No flood-proofing in           Increased repair.
                                                    added flood-proofing           repair .                       Region added flood-
                                                    to repair.                                                    proofing to repair.


                              Region decision to replace.             Reduced repair              Increased repair and              Increased repair.
                              No supporting details                   and replacement.            replacement. Region               Region added flood-
                              available.                              No flood-proofing           added flood-proofing              proofing to repair.
                                                                      in repair.                  to repair.

             Repair per Region               Replacement per Region                       Repair per Policy           Replacement per Policy




www.oig.dhs.gov                                                         11                                                                   DD-12-17
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Recent HVC Repair and Replacement Estimates 


   As the HVC replacement estimate increased, Region VII staff recognized that the earlier
   repair estimate should be updated. Therefore, Region VII prepared an unofficial “gut
   check” repair vs. replacement calculation based on a July 2011 walk-through that
   resulted in a $76.56 million estimate to repair the HVC and a $160.6 million estimate to
   replace it. These new estimates produced a 47.7 percent repair vs. replacement ratio
   that was short of the required 50 percent. 9 However, these estimates continued to
   include $23.7 million in unallowable code-triggered hazard mitigation costs
   (unallowable in the 50 Percent Rule calculation, but allowable for reimbursement under
   the Public Assistance program). Removing the $23.7 million in hazard mitigation drops
   the estimated repair costs to $52.86 million, or 32.9 percent of the replacement costs,
   well short of the required 50 percent. However, Region VII ignored this estimate
   because of the limited nature of the July 2011 walk-through and the expectation that
   repair costs would increase after an exhaustive examination.

   In September 2011, Region VII performed a further refinement of the calculation based
   on the July 2011 walk-through. This calculation resulted in a $77.75 million estimate for
   HVC repair costs and a reduced $148.66 million estimate for replacement. This
   calculation produced a 52.3 percent repair vs. replacement ratio. However, the repair
   costs continued to include $24.88 million in hazard mitigation costs (unallowable in the
   50 Percent Rule calculation, but allowed for reimbursement under the Public Assistance
   program). Removing the $24.88 million in hazard mitigation costs drops the estimated
   repair costs to $52.87 million, or 35.56 percent of the replacement costs, again well
   short of the required 50 percent.

   On January 6, 2012, FEMA Region VII officials provided updated and detailed repair and
   replacement costs and revised 50 Percent Rule calculations for HVC based on the
   University architects’ November 21, 2011, “HVC Repair and Protection Estimate.” This
   new information reflected HVC estimated repair costs of $52.09 million and estimated
   replacement costs of $148.66 million (both hard costs only). These estimates produced
   a 50 Percent Rule calculation of 35.04 percent. However, when the code-triggered
   mitigation of elevating the whole-building was included, the estimated costs to repair
   the building increased to $79.52 million. Adding the unallowable whole-building
   elevation costs to the repair costs resulted in a 50 Percent Rule calculation of 53.49
   percent ($79.52 million divided by $148.66 million).



   9
    We emailed a memorandum to FEMA Region VII officials on June 30, 2011, announcing that we would
   begin this audit in July 2011.


www.oig.dhs.gov                                    12                                                 DD-12-17
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Because Region VII’s HVC replacement decision was initially unsupported and later
   based on estimates that included unallowable costs for code-triggered whole-building
   upgrades, the decision to replace the HVC is not supported by FEMA’s 50 Percent Rule.
   Therefore, we question $61,684,880, and recommend that those Federal funds be put
   to better use. The amount questioned is the difference between the current project
   replacement amount of $220,417,038 (obligated) and the most recent repair estimate
   of $158,732,158, which includes the code-triggered mitigation costs that are eligible for
   FEMA reimbursement, but are not allowed to be used in the repair or replacement
   decision.10

   Art Building East Repair and Replacement Estimates

   In December 2008, Region VII officials prepared additional cost estimates for making
   their decision to repair or replace Art Building East. They made their decision to replace
   it in the same manner as their decision to replace HVC, using incomplete data collected
   under similar rushed conditions. Therefore, the estimates used to support replacing Art
   Building East suffered from estimating problems similar to HVC’s. As shown in figure 2,
   Region VII’s December 2008 decision used a 50 Percent Rule calculation of 56.7 percent
   to support the replacement of Art Building East. That ratio was based on an $8.9 million
   estimate to repair the Art Building and a $15.697 million estimate to replace it.
   However, Region VII staff said they could not find the detailed supporting cost data for
   the Art Building East replacement estimate. In October 2009, FEMA performed new
   repair and replacement estimates for another 50 Percent Rule calculation for Art
   Building East. Those estimates yielded a 54.2 percent ratio that would have authorized
   the replacement of the buildings. As with HVC, the replacement costs escalated from
   $15.697 million in 2008 to $76.27 million, a fivefold increase (hard and soft costs).




   10
     We calculated funds put to better use using the December 8, 2011, $158,732,158 repair cost estimate
   that includes the code-triggered, whole-building elevation costs. The $158,732,158 in repair costs (hard
   and soft costs) is allowable under FEMA’s Public Assistance program. However, FEMA’s 50 Percent Rule
   only allows $52.09 million (hard costs only) in the numerator.


www.oig.dhs.gov                                       13                                                      DD-12-17
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Figure2: Comparison of Region VII’s Calculations for Art Building East to Calculations
   Per the 50 Percent Rule

                                                          Art Building East Complex
                                                        Time-line of 50% Calculations


                  40                                                                                                62.1%        38.3%


                  35


                  30


                  25


    $ Millions    20            50.9%                          56.7%                         54.2%


                  15


                  10


                   5


                   0
                                 Nov                            Dec                              Oct                            Dec
                                 '08                            '08                              '09                            '11

                          No supporting            Region decision to replace.         Reduced repair and            Increased replacement
                          details available.       No supporting details               replacement.                  and repair. Region
                                                   available.                                                        added flood-proofing




                       Repair per Region        Replacement per Region       Repair per Policy         Replacement per Policy




www.oig.dhs.gov                                                 14                                                                DD-12-17
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   On January 6, 2012, FEMA Region VII officials also provided updated repair and
   replacement costs and revised 50 Percent Rule calculations for Art Building East based
   on the University architect’s November 21, 2011, “Art Building Complex Flood Repair &
   Flood Protection Study & Estimate.” This new information reflected estimated costs of
   $14.02 million for building repairs and $36.58 million for replacement, resulting in a 50
   Percent Rule calculation of 38.32 percent. However, when the unallowable code-
   triggered mitigation cost to flood-proof the buildings were included, the estimated
   repair costs increased to $22.707 million. Adding the whole-building flood-proofing
   costs to the repair costs resulted in a 50 Percent Rule calculation of 62.07 percent
   ($22.707 million divided by $36.584 million).

   Because Region VII’s Art Building East replacement costs were initially unsupported, and
   later based on estimates that included unallowable costs for code-triggered whole-
   building upgrades, the decision to replace the Art Building East is not supported by the
   50 Percent Rule. Therefore, we question $22.06 million and recommend that those
   funds to be put to better use. The amount questioned is the difference between the
   current project amount of $76.27 million (obligated) and the most recent repair
   estimate of $54.21 million, which includes the code-trigged mitigation costs that are
   eligible for FEMA reimbursement but are not allowed to be used in the repair or
   replacement decision.

   FEMA Cost-Estimating Policies and Procedures

   FEMA policies and procedures do not specifically address how FEMA staff should
   perform and review cost estimates under the 50 Percent Rule for large and complex
   facilities other than to state that a “complex infrastructure project may require a more
   experienced engineer or cost estimator with specialized experience in the functional
   area of the damaged facility.” 11 Although FEMA’s CEF cost-estimating guidance explains
   the estimating process, the guidance does not require an independent review of the
   results. However, we believe that multimillion-dollar decisions based on estimates
   warrant a systematic and independent review by highly qualified professionals. Had
   Region VII officials conducted an independent review of their cost estimates, they could
   have corrected many of the deficiencies identified in this report. Therefore, Region VII
   should develop cost-estimating procedures and review standards for large and complex
   cost estimates to prevent serious errors on future projects.




   11
        CEF for Large Project Instructional Guide, Version 2, November 1998.


www.oig.dhs.gov                                         15                                     DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Region VII Comments During the Audit

   During our fieldwork, we discussed our findings with FEMA Region VII officials, who
   acknowledged that Region VII could improve its cost-estimating procedures under the
   50 Percent Rule. Although Region VII officials suspended their decision, developed
   revised detailed cost estimates, and generally agreed to further develop and refine their
   policies and procedures to address large and complex cost-estimating projects, they
   disagreed with our other findings and recommendations, stating that—

           1.	 The methodology used by FEMA’s cost estimators is meant to establish a
               ratio of repair to replacement using a consistent estimating methodology,
               not to estimate the actual repair and replacement costs.

           2.	 The CEF is as much art as science and estimates will always change over time,
               resulting in equally valid estimates.

           3.	 FEMA policy is silent regarding how much information is required to make
               the 50 Percent Rule determination; Region VII staff used the best information
               they perceived available at the time.

           4.	 FEMA’s senior management believes it is contrary to good disaster recovery
               management to overturn a FEMA repair or replace decision once it has been
               made, because applicants rely on FEMA’s decision to move forward on
               recovery activities.

           5.	 Federal regulations require applicants to complete permanent projects in
               18 months, which makes timely decisions essential.

           6.	 The April 13, 2007, memorandum from the FEMA Acting Assistant
               Administrator, Disaster Assistance Division, to the Associate Deputy
               Administrator for Gulf Coast Recovery was not issued FEMA-wide and is
               therefore not binding on Region VII.

           7.	 May 24, 2011, the then-Acting FEMA Public Assistance Division Director
               approved Region VII’s use of the hazard mitigation upgrade (dry flood-
               proofing) as a code and standard to be included on the repair side of the 50
               percent calculation based upon the floodplain manager’s determination of
               substantial damage.




www.oig.dhs.gov                                16	                                            DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           8.	 The Iowa floodplain manager fulfilled his responsibility to determine whether
               the facility was substantially damaged; the methodology he used to make
               this determination is beyond FEMA’s control.

           9.	 Further delays in replacing the HVC building will adversely affect the
               University and increase costs to the taxpayer as costs escalate, including the
               ongoing costs of temporary classrooms.

           10. The University has incurred more than $16 million planning to replace HVC as
               well as $6.5 million in new land acquisitions, costs that FEMA may have to
               pay.

           11. Unforeseen repair costs may further increase overall cost to taxpayers.

           12. The University could move ahead with its replacement and relocation plans,
               claim actual costs, and appeal any attempt by FEMA to place a cap on
               expenditures.

   Although we generally disagree with Region VII’s comments, we recognize that FEMA’s
   repair costs may escalate if Region VII reverses its replacement decisions. However, the
   repair vs. replace ratio should be based on carefully developed cost estimates using the
   best data available, not on rushed estimates using general and incomplete data. Finally,
   although we acknowledge FEMA’s concern that Federal regulation requires applicants to
   complete permanent projects in 18 months, FEMA routinely extends this deadline,
   sometimes for many years. Without accurate cost estimates, FEMA Region VII cannot
   know whether replacing the buildings is the right decision under the 50 Percent Rule.

   Recent Information Provided

   On January 6, 2012, FEMA Region VII officials provided us with new documentation for
   both HVC and Art Building East:

       1.	 Predisaster fair market value appraisals;
       2.	 A new Iowa Department of Natural Resources determination letter requiring
           upgrades to HVC and Art Building East to protect the buildings from future
           floods;
       3.	 Repair and flood protection engineering reports, including cost estimates; and
       4.	 Revised repair vs. replacement calculations.

   On January 17, 2012, FEMA Region VII officials also provided us with independent
   reviews of the University’s repair cost estimates for HVC and Art Building East. These


www.oig.dhs.gov                                17	                                              DD-12-17
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   reviews examined the cost assumptions used by the University’s architects to estimate
   costs for repairing the buildings and protecting them from future flooding. On April 20,
   2012, Region VII officials provided a written response to our draft report that included a
   new legal justification not brought up during our audit (exhibit B). In their response,
   FEMA officials asserted that the Regional Administrator has the authority to relocate
   (and by logical extension replace) a destroyed facility.12 This justification, coming long
   after the decision-making process, is flawed. Clearly, FEMA recognized that the proper
   approach was to apply the 50 Percent Rule and did so though, as we demonstrate in this
   report, the analysis was seriously flawed. If relocation were permissible from the
   outset, FEMA would have had no reason to expend efforts to determine whether repair
   or replacement was authorized. Relocation is only authorized if a building is destroyed,
   and the University’s buildings were not. Further, to countenance a relocation decision
   under § 206.226(g) based on purportedly destroyed facilities, without first determining
   whether the facility was even eligible for replacement under § 206.226(f), would permit
   vitiation of the 50 Percent Rule.

   Regarding FEMA policy, code-triggered upgrades like those required by the Iowa
   Department of Natural Resources to protect the building from future flooding, although
   reimbursable under the Public Assistance program, are not included in the 50 Percent
   Rule calculation used to determine whether FEMA should fund the repair or
   replacement of damaged buildings.


                                         CONCLUSION

   FEMA Region VII officials did not properly estimate replacement costs under the 50
   Percent Rule for HVC. Rather than relying on lump-sum square footage data, Region VII
   cost estimators should have prepared detailed replacement cost estimates based on
   clear, concise, and complete scopes of work using available detailed construction
   drawings. Region VII also should have recognized that the size and unique qualities of
   the HVC building complex required greater care in preparing and reviewing cost
   estimates. FEMA has since provided detailed cost estimates. However, in the most
   recent estimates, Region VII officials were only able to surpass the 50 percent
   thresholds by adding unallowable code-triggered upgrades to their repair estimates.

   Region VII officials have recently asserted a FEMA authority to relocate “destroyed”
   buildings. However, the criteria for replacement under the 50 Percent Rule were not
   met, and the University’s buildings were not eligible for relocation because they were
   not destroyed. Therefore, Region VII officials should suspend their decisions to replace

   12
        44 CFR 206.226(g)(1).


www.oig.dhs.gov                               18                                              DD-12-17
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   these buildings, develop cost-estimating policies and procedures and review standards
   to address the challenges presented by large and complex estimating projects, and
   deobligate $83.7 million, which represents the difference between the current project
   amounts and the most recent repair estimates that include the code-trigged mitigation
   costs that are eligible for FEMA reimbursement but are not allowed to be used in the
   repair or replacement decision. In future disasters, Region VII should also resist
   pressure to make rushed repair or replacement funding decisions.


                                  RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region VII:

       Recommendation #1: Suspend the replacement decisions for the Hancher Voxman-
       Clapp building and the Art Building East.

       Recommendation #2: Develop cost-estimating policies and procedures and review
       standards to address cost estimating for large and technically complex projects
       under the 50 Percent Rule.

       Recommendation #3: Deobligate $61,684,880 ($55,516,392 Federal share) from
       Hancher Voxman-Clapp building (Project 10367) and put those Federal funds to
       better use.

       Recommendation #4: Deobligate $22,060,714 ($19,854,643 Federal share) from Art
       Building East (Project 1587) and put those Federal funds to better use.


                      MANAGEMENT COMMENTS AND OIG ANALYSIS

   We discussed the results of our audit with FEMA and IHSEMD officials during our audit
   and included their comments in this report, as appropriate. We also provided a draft
   report in advance to FEMA officials and discussed it at an exit conference held with
   them on January 30, 2012. At the exit conference, FEMA officials requested the
   opportunity to respond in writing before we issued our final report. We have included a
   copy of the April 20, 2012, management comments to the draft report except for its
   attachments, which are too voluminous to include in this report (exhibit B).

   In its April 20, 2012, response, FEMA provided written comments on a draft of this
   report. In those comments, FEMA concurred with our recommendation to “Develop
   cost estimating policies and procedures and review standards to address cost estimating


www.oig.dhs.gov                              19                                            DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   for large and technically complex projects under the 50 Percent Rule.” FEMA, however,
   did not concur with our recommendations to:

       •	 Reverse the decisions to fund the replacement of the Hancher Voxman-Clapp
          building and the Art Building East, or suspend the replacement decisions until
          detailed and comprehensive cost estimates can be developed;
       •	 Deobligate $61,684,880 ($55,516,392 Federal share) from Hancher Voxman-
          Clapp complex based on unsupported and inaccurate replacement estimates
          under the 50 Percent Rule and put those Federal funds to better use; and
       •	 Deobligate $22,060,714 ($19,854,643 Federal share) from Art Building East
          based on unsupported and inaccurate replacement estimates under the 50
          Percent Rule and put those Federal funds to better use.

   In its response to the report, FEMA stated that it performed adequate and detailed cost
   estimates to determine that the facilities were eligible for replacement. In justifying its
   decision, FEMA asserted that the RSMeans software that it used to arrive at its cost
   estimate “is a nationally recognized software used by contractors, architects and
   engineers for the purpose of developing construction estimates and is one of the most
   used, quoted and reliable cost data guides available to the construction industry.”
   However, arguments raised in FEMA’s written response are irrelevant to the propriety
   of the repair/replacement decision because the costs of either the elevation or flood
   proofing upgrades required by the flood-plain manager are unallowable in the
   numerator of the 50 Percent Rule calculation. FEMA could not reach the minimum
   50 percent thresholds without including these upgrades.

   Further, while we do not intend to impugn the quality and usefulness of the RSMeans
   software in general, our report points out the limitations of the Square Foot Estimator
   feature of RSMeans when used to estimate the cost of replacing buildings as large and
   complex as the HVC and Art Building East. Further, as discussed below, the software
   feature specifically warns users that the software should not be used when the area of
   the building is outside the range recommended by RSMeans.

   The Square Foot Estimator is not designed to consider the costs of the unique qualities
   and complexities of an iconic structure like the HVC performance hall-classroom
   complex and Art Building East. The Square Foot Estimator is a conceptual tool designed
   to use a limited number of typical building styles and cost variables. The user need only
   enter a limited amount of information (i.e. type of building, area, perimeter, number of
   stories, story height, framing, and exterior walls) for a “conceptual level” cost estimate.
   For example, the Square Foot Estimator cannot differentiate between the cost to build a



www.oig.dhs.gov                                20	                                           DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   high school auditorium and a world-class performance hall. Finally, if the user enters
   building parameters that are not within the recommended range, as in this case,
   RSMeans literature warns the user that the cost per square foot and total building cost
   may not be accurate.

   Our decision to question the propriety of the RSMeans Square Foot Estimator software
   to estimate the replacement cost of the two facilities is supported by the nearly six-fold
   increase in the estimated cost to replace the two facilities. Specifically, the cost to
   replace the facilities has grown from an estimate of less than $50 million to a current
   estimate of nearly $300 million. Thus, given the RSMeans Square Foot Estimator
   warning, and the magnitude of Federal expenditures proposed for the two complexes,
   FEMA should not have relied on the Square Foot Estimator to justify its replacement
   decisions.

   As noted above, in addition to questions concerning the appropriateness of the
   software used to arrive at estimated replacement costs, FEMA’s decision to include
   code-trigged upgrades in its replacement decision calculation is contrary to FEMA’s
   policies in effect at the time of the disaster. Specifically, the Acting Assistant
   Administrator, Disaster Assistance Division, issued a memorandum in April 2007 to
   provide guidance on eligibility of costs Public Assistance applicants incur to comply with
   locally adopted flood plain management ordinances. These ordinances require
   substantially damaged structures in an identified 100-year flood plain to be flood
   proofed or elevated. However, while the memorandum points out that the cost to flood
   proof or elevate the facility is an allowable repair expense that FEMA will pay, it
   emphasizes that those costs are not an allowable expense to be included in the
   Eligibility of Facilities for Replacement calculation, commonly referred to as the
   50 Percent Rule.

   FEMA’s decision to fund the replacement of the facilities, rather than provide the funds
   necessary to repair the facilities, means that FEMA would improperly pay about $75
   million. In other words, based on the policies in effect at the time, FEMA should be
   providing the University about $192 million (Federal share) to repair the two facilities,
   rather than its current proposal to provide the University about $267 million (Federal
   share) to replace the two facilities.

   Finally, FEMA also asserted that it justified its decision to replace the buildings based on
   flood plain management requirements. FEMA asserted that, under National Flood
   Insurance Program requirements and the Federal floodplain management regulations,
   when a building is either “substantially damaged” or “substantially improved,” the
   community must either elevate the structure so the lowest floor (including basement) is
   at or about the base flood level, or ensure the portion of the facility and its attendant


www.oig.dhs.gov                                21                                               DD-12-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   utilities below the base flood level are watertight. FEMA continued by stating that the
   definition of substantial improvement requires flood plain management measures
   whenever the cost to repair a facility in a special flood hazard area to its pre-damaged
   condition equals or exceeds 50 percent of the market value of the structure.

   To support that these facilities meet these definitions, FEMA provided a January 2012
   letter from the Iowa Department of Natural Resources that referred to an independent
   appraisal company valuation and replacement cost of both HVC and Art Building East.
   That letter stated that pre-damage market values of the HVC complex and Art Building
   East were $5.8 million and $870,000, respectively, while the cost to reconstruct the two
   facilities would be $45 million and $14 million, respectively. Given the extremely low
   fair market value of the two buildings, the extremely high December 2011 $297 million
   total estimated replacement cost of the two facilities, and our concerns regarding
   FEMA’s incorrect calculations in applying the 50 Percent Rule, we have serious doubts
   concerning the validity of the process FEMA used to arrive at its decisions to replace
   these facilities.

   We recognize that the application of the correct criteria will have a significant financial
   impact. However, given the record annual Federal budget deficits, the unprecedented
   Federal debt, and the precedent that this decision could have on other Public Assistance
   grant decisions, we maintain that FEMA should comply with the criteria set forth in its
   policy for applying the 50 Percent Rule and implement all of the recommendations in
   this report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, Recommendations #1, #3, #4, and #5 will be considered open
   and unresolved. Recommendation #2 will be considered resolved and open.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Christopher Dodd, John Polledo, and Patti Smith.

   Should you have questions, please call me at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.



www.oig.dhs.gov                                22                                             DD-12-17
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


                                                                                                           EXHIBIT A

                                  Schedule of Replacement Projects Reviewed 

                                    May 25, 2008, through August 24, 2011 

                                      University of Iowa, Iowa City, Iowa

                                      FEMA Disaster Number 1763-DR-IA





                              A                B                    C                D
                                                                                  Amount
                          Project           Award               Repair           Questioned
                          Number           Amount             Estimate 13          (B-C)
                           10367        $ 220,417,038       $ 158,732,158 $ 61,684,880
                            1587        $ 76,271,623         $ 54,210,909 $ 22,060,714
                           Totals       $ 296,688,661       $ 212,943,067 $ 83,745,594




   13
     The HVC repair estimate is based on Neumann Monson Architects’ November 21, 2011, “HVC Repair and
   Protection Estimate.” The Art Building East repair estimate is based on Invision Planning Architecture Interiors’
   November 21, 2011, “Art Building Complex Flood Repair & Flood Protection Study & Estimate.” The repair
   estimates include all hard and soft costs.




www.oig.dhs.gov                                        23                                                    DD-12-17
                                                OFFICE OF INSPECTOR GENERAL
                                                      Department of Homeland Security


                                                                                                                                                 EXHIBIT B

                                         Management Comments to the Draft Report
                                                                                                         U.S. Dtparlmenl of Homelalld Security
                                                                                                         RegIon VII
                                                                                                         922] Ward t'arkway. SUIte 300
                                                                                                         Kansas City. "10(>4]14·)372




                                                                                                         FEMA
                                                                           APR 20 2012

              MEMORANDUM TO,                         D. Michael Beard
                                                     Acting A:s:si:s1<mtln:spc(.;Lur General
                                                     Office of Emergency Management Oversight

              FROM,                                  Beth Freeman
                                                     Regional Administrator, Region VI I
                                                     Federal Emergency Management Agency

              SUBJECT:                               FEMA 's Decisions to Replace Rather Than Repair Buildings Of the
                                                     University of Iowa
                                                     FEMA Disaster N umbcr 1763-DR-IA
                                                     Audit Report Numhcr DD-1 2-##

              11te Federal Emergency Management Agency (F EMA) has reviewed the Office oflnspector
              General's (O IG) draft report of March 19, 201 2 entitled FEMA ',I; Deci.~ions 10 Replace Rather Than
              Rep(lir Buildings al Ihe University of 10W(l. Thank you for the opportuni ty to respond to the findings
              and recommendations presented in the report.

              Recomm endation #1: Reverse th e decision s to fund the r eplacement of the Hancher Voxmnn -
              Clapp Building and the Art Building East, or suspend the replacement decisions until detailed
              and com prehensive cost estimate!! can be developed.

              FEMA Response: FEMA disagrees with this recommendation. FEMA performed adequate and
              detailed cost estimates for the University's Hancher Voxm an-Clapp Building (HVC) and Art
              Building East (ABE) fac ili ties to detennine whether they are cl igiblt: fur rt:plact:ment. Thcsc
              projects are written as improved projects because the University desired an enhanced fac ility beyond
              pre-disaster design. Thererore, the eligible costs for the improved projects have been capped a~
              required under 44 CFR 206.203(d)(1). Funhennore, in 2010, the Regiunal Aomini:strator required
              relocation of the I-IVC and ABE fac ilities to a new s ite(s) outside the floodplain , pursuant to 44 CFR
              206.226(g).

                  FEMA has provided below a summary of its approach to Hye and ABE.

                  Project Formulation and Cost Estimating - Generally

                  To generate the cost estimates, FEMA used the Cost Estimating Fonnat (CEF)] tu comp ile the
                  relevant data and information (e.g. , building specifications, materials, itemized units of damage,
                  etc.). The CEF should only be used on large projects, like HVe and ABE, for which the pennanent
                  restorative work is less than 90 percent compl etr.:? The CEF is a wurbhct:t that allows the user to

                  I For more inrormation on the C EF, visit: http://www.ferna.gov/govemmcntlgranllpalccfsop.shtm
                  2 Sec CEF fur u.rgc Projects [mtructiullal Guilk:. pagt: 2-1.                         \\'ww.fema.gl)v




www.oig.dhs.gov                                                        24                                                                         DD-12-17
                                                 OFFICE OF INSPECTOR GENERAL
                                                       Department of Homeland Security


                                                                                                                                                EXHIBIT B

                                          Management Comments to the Draft Report



                  estimate the base construction costs and then appl y a series of factors that represent potential
                  additj onal eli gible project costs not captured in the base construction costs. Those base costs,
                  referred to as ''''Part A", are representative o f the construction efforts required to directly and
                  specifical ly complete the defin ed eligible work - typically, the trade or subcontractor(s) costs that
                  are eligible under the Public Assistance program.

                  When evaluating a project using l:1 CEF, FEMA rC4uests l:1veraged weighted unit prices frum the
                  appli cant, or from a relevant State or regional agency. If the applicant does not have appropriate
                  average weighted unit price data, FEMA uses the most current available cost data in accordance with
                  industry standard construction cost estimating resources, such as RSMeans, BNi Costbooks, Sweet's
                  Unit Cost guide, the ADA Compliance Pricing Guide, and square foot costs.)

                  RSMeans is nationally-recognized software uscd by contractors, architects and enginecrs for the
                  purpose of developing construction est imates, and is one of the most used, quoted and reliabl e cost
                  data guides available to the construction ind ustry.4 RSMeans allows for usc of a square foot area
                  method to develop construction estimates, which is one of five methods recognized by the American
                  Institute for ArchiteclS for estimating construction costs for projects.

                  Initial Projec.:1 Formulation and Cost          E~ilimalingfor      HVC and ABE

                  To detemline whether the facilities were eligible for repair or replacement, FEMA generated
                  estimates of the damage to the I-lVC and ABE facilities. FEMA conducted initial assessments of
                  both faci lities in November 2008, but because PEMA had limited access to the faci liti es, the Agency
                  performed more detailed assessments in December 2008.

                  For the December 2008 assessments, FEMA assembled a Building Assessment Team ( BAT) to
                  conduct thorough site inspections o f the fac ilities, generate architectural takc-offs, and develop
                  accurate cost estimates usi ng FEMA. approved tools. This tcam was comprised of highly quaJified
                  and experienced professional engineers, constructio n managers, insurance adjusters and cost
                  estimators.

                  Because the as-built drawings and Project Specification Manual were not available to FEMA when
                  conducting the initial assessments o fHVC and AB E, FEMA was not able to create an it em ized unit
                  cost repair or replacement estimate. Consequentl y, FEMA used the square foot area method and RS
                  Means cost data to deve lop its estimates, which were then entered into Part A of the CEF and used to
                  generate the repair and replacement estimates for INC and ABE.

                  The December 200S calculations S completed by the FEMA BAT team yielded the fo ll owing repair
                  and replacement estimates: 6

                  Ha ncher Voxm a n-C lapp                                                    Art Building East
                  Repair Est imate: $26,279,328.30                                            Repair Estimate: $S,90 1,724.59
                  Replacement Estimate: $42,557,400.00                                        Replacement Estimate: $ 15,696,700.00
                  Damage Percentage: 61.S%                                                    Damage Percentage: 56.7%

                  J   See CEF for Large Projects Instructional Guide, page 2-3.
                  4   For more information on RSMeans. see website at hnp:llwww.rneanscostworks.com/.
                  ~ Sec Attachment A. These (:aiculations did not include (:osts to elevate the facili ties.
                  6 The dollar amou nts reflec ted arc esti matcs, and do 1I0t (nor are t hey intended to) refl ect act ua l dollar a mou nts
                  to repai r or rep lace t he faci lity.
                                                                                  2




www.oig.dhs.gov                                                         25                                                                       DD-12-17
                                              OFFICE OF INSPECTOR GENERAL
                                                    Department of Homeland Security


                                                                                                                                       EXHIBIT B

                                        Management Comments to the Draft Report



                  ''The 50% Rule" - Generally

                  FEMA may provide assistance to repair, restore, and replace damaged fac ilities. Eligible costs are
                  based on '"the design of such facility as it existed immediately prior to the major disaster and in
                  conformity with current applicable codes, specifications, and standards (including floodp lain
                  management and hazard mitigation criteria) .... ,,7 When determining whether a facility should be
                  repaired or replaced, FEMA must determine whether the cost to repair a facility is greater than 50
                  percent of the cost to replace it.! The dollar anlounts reflected are estimates, and do nOl (nor are they
                  intended to) reflect actua l dollar amounts to repai r or replace the facility.

                  FEMA Policy 9524.49 provides that ""the determination of eligibility for a replacement facility shall
                  include only costs for the repair of damage, and not the costs of any triggered or mandatory
                  upgrading of the facility beyond the repair of the damaged elements." To determine the percentage
                  of repair costs to replacement costs, the repair cost (numerator) is divided by the replacement cost
                  (denominator). The FEMA Public Assistance Policy Digest 10 states the ""repair cost includes only
                  those repairs, including non-emergency mold remediation, associated with the damaged components
                  and the codes and standards that apply to the repair of the damaged components." In addition, "the
                  cost does not include upgrades of other components triggered by codes and standards, design
                  associated with upgrades, demolition of the entire facility, site work, or applicable project
                  management costs. "II This means the cost to upgrade damaged elements required as part of the
                  repairs to the dama~ed elements of the facility are appropriately factored into the estimated repair
                  cost of the facility:

                  On January 21, 2009, based on the above 50% Rule calculati ons, FEMA infomled the State that both
                  HVC and ABE were eligible for replacement. 1J

                  Applicability of Floodplain Management Requiremenfs

                  Both HVC and ABE are located in flood zone AE, which is a Special Flood Hazard Area. 14 Under
                  National Flood lnsnrance Program requiremen ts, as well as Federal floodpl ain management
                  regulations applicable to all FEMA assistance, when a building in the AE Zone is either
                  "substantially damaged" or "substantiall y improved." the community must either elevate the
                  structure so the lowest floor (including basement) is at or above the base flood level, or ensure the
                  portion of the facility and its anendant utilities below the base flood level are watertight. with walls
                  substantially impenneable to the passage ofwater and with structural components having the
                  capability of resisting hydrostatic and hydrodynamic loads and effects of buoyancy, e.g., dry
                  floodproof. I S


                  7 Section 406 of the Robert T. Stafford Disaster Reliefand Emergency Assistance Act, 42 U.S.c. §5172 (the "'Stafford
                  Act").
                  B 44 CFR 206.226(f).
                  9 FEMA Policy 9524.4, Eligibility of Facilities for Replacement under 44 CFR 206.226(dXl), Seplember 24, 1998. This

                  rule further interprels the "50 percent" requirement established in 44 CFR 206.226(0.
                  10 FEMA 32 I I January 2008, p. 113.
                  11 14. at 113.
                  I? Under the 50% Rule, the calculation is based on a fraclion (or ratio) with the numeralor representing the estimaled
                  repair cost and the denominalor representing the estimated replacement cost.
                  13 See Attachment B.
                  I. See Attachmenl C.

                  Ij See 44 CFR 60.3(c)(3) and 44 C FR 9.1 1(d)(3).

                                                                            3




www.oig.dhs.gov                                                     26                                                                     DD-12-17
                                             OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security


                                                                                                                           EXHIBIT B

                                      Management Comments to the Draft Report



                  The regulations in 44 CFR Part 9 use the tenn "substantial improvement" to trigger the elevation or
                  waterproofing requirement, while 44 CFR Part 60 uses the term "substantial damage." The
                  definition of substantial improvement requires floodplain management measures whenever the cost
                  to repair a facility in a Special Flood Hazard Area to its pre-damage cond ition equals or exceeds
                  50% of the market val ue of the structure or replacement cost of the facility.1 6 The definition of
                  substantial damage requires floodp lain management measures whenever the cost to restore the
                  structure would equal or exceed 50 percent of the market value of the structure before the damage
                  occurred. 17

                  In 2009, the Iowa Department of Natural Resources (DNR) determined the HVC and ABE facilities
                  were "substantiall y damaged.,,18 DNR reaffimled these substantial damage determinations via
                  subsequent assessments conducted by an independent appraisal company on HVC and ABE in 2011,
                  whkh was based on a ratio of repair costs to fair market value of the facility, not on FEMA's
                  replacement costs. 19 Also. as previously explained, FEMA' s December 2008 cost estimate
                  concluded the HVC faci lity had a repair to replacement ratio of61.8% and the ABE facilit y had a
                  repair to replacement ratio of 56. 7%?O The cost of repair for each facility exceeded 50% of the
                  replacement cost; therefore, had FEMA applied the Part 9 definition of substantial improvement. it
                  would have tri ggered the floodplain management measures discussed above. Thus, the scope of
                  work for the projects was required, pursuant to both Part 9 and Part 60, to include repajr with
                  elevation, or repair with flood proofing.

                  Refining the Estimates

                  With the Agency's detemlination on the 50% Rule made and the requirement to include floodplain
                  management measures in accordance with regulations, FEMA continued to refine its estimates as
                  additional infonnation became avail able regarding specific building elements, e.g., required
                  elevation of the structures.

                  The requirement to elevate structures above the IOO-year floodplain21 impacts the basement and part
                  of the first floor of the HV C. Portions of the first floor above the I DO-year noodplain are not subject
                  to the elevation requirement. However, engineers and architects hired by the Applicant advised that
                  elevating only portions of the building subject to the compliance requirements would result in
                  differing elevations and would creme unacceptab le compatib ility issues with the functional areas of
                  the building. As noted in the project worksheets, FEMA determined elevation of only the affected
                  portions of the structure was not techni cally feasible. 22 This determination was substantiated in 2011
                  by the Un iversity's consulting architects and engineers?3 Thus, in order to comply with floodplain
                  management requ.irements. the entire building must be elevated when repaired. In addition, in order
                  to comply with applicable elevation or floodproofing requirements for the damaged elements of both
                  facilities. it is not feasible to elevate the HVC, nor is it cost-effective to floodproofjust the damaged


                  16   44 CFR 9.4.
                  17   44 CFR 59.1.
                  II See Attachment D. Funher, FEMA Publication 213, dated May 1991. states that FEMA may accept a local
                  government official's detennination of substantial damage.
                  r9 See Attachment E.
                  %0 See Attachments A and B.

                  21 See 44 CF R 9.1 I(dX3) and 6O.3(cX3).
                  22 See Attachment C.
                  2.l Sec Attachments F and G.

                                                                         4




www.oig.dhs.gov                                                  27                                                           DD-12-17
                                              OFFICE OF INSPECTOR GENERAL
                                                    Department of Homeland Security


                                                                                                                                   EXHIBIT B

                                       Management Comments to the Draft Report



                  elements; for the ABE, it is not cost-effective to elevate or to tloodproofthe fac ility.24 From a publi c
                  policy perspective, it is important to note that compliance with floodplain management requirements
                  would improve and extend the useful li fe of the buildings and bring the safety of the buil dings up to
                  current standards. 2s

                  In late 2009, FEMA revised its cost estimates for the HVC complex, increased the repair costs by
                  $27. 1 mi llion to reflect the cost of tloodplain management compliance measures i.e., elevation of
                  the structures. and increased the replacement costs from $42.56 million to $84.5 million. For the
                  ABE, FEMA decreased the repair costs by $1.3 million and the replacement costs by $1.75 million.
                  These changes were based on line-item cost estimates developed using FEMA 's CEF. While FEM A
                  had already detennined both facilities were el igible for replacement based on its previous 50% Rule
                  calculation in December 2008?6 application of these refined 2009 estimates served as the basis for
                  eligible costs in the PWs for the HVC and ABE facilities?7 These 2009 estimates are shown below:

                  Hancher Vox man-C lapp                                       Art Building East
                  Repair Estimate: $45,857,554                                 Repair Estimate: $7,558,763
                  Replacement Estimate: $84,536,389                            Replacement Estimate: $ 13,946,284
                  Damage Percentage: 54.2%                                     Damage Percentage: 54.2%


                  Recommendation #2: Develop cost estimating policies and procedures and review standards to
                  address cost estim ating for large and technically complex projects under th e 50 Percent Rule.

                  FEMA Response: FEMA agrees and understands the importance of consistently reviewing the
                  adequacy of reviews and other internal controls. In response to lessons learned from the 2008 Iowa
                  Floods and later disaster operations such as DR-1980 (Joplin), FEMA has developed field guidance
                  for applying the 50% Rule in unusual circumstances, a copy of which is included as Attachment L to
                  this response. Accordingly, FEMA believes this recommendation should be considered resolved and
                  closed.

                  Recommendation #3: Deo bligate $61,684,880 ($55,516,392 federal share) from Hancher
                  Vox man-C lapp complex (Project 10367) based on unsupported and inaccurate replacement
                  estimates under tb e 50 Percent Rule and put tbose federal funds to better use.

                  FEMA Response: FEMA disagrees with this recommendation. Please see O Uf response to
                  Recommendation #1. FEMA maintains its detennination regarding the facility's eli gibility for
                  rep lacement is accurate and consistent with appljcable regulations and po li cies. FEMA 's cost
                  estimates are fully supported by technical expertise, and third party verification that the HVC
                  building satisfies the 50% Rule, consistent with FEMA regulations and policy.

                  Recommendation #4: Deobligate $22,060,714 ($19,854,643 federal share) from Art Building
                  East (project 1581) based on unsupported and inaccurate replacement estimates under the 50
                  Percent Rule and put those fede ral fund s to better usc.

                  2~ See Anachments F, G, Hand J.
                  2S See FEMA Policy 9524.4.
                  loSSee Anachment A.
                  21 Based on FEMA 's procedures and guidance for project formulation. FEMA fo rmulated large project worksheets
                  (PWs) for HVC (PW # 10367) and ABE (PW # 1587) using estimated costs. Sec also FEMA 9570.5 SOP - Publ ic
                  Assistance, Standard Operating Procedure. Project Formulations, September 1999.
                                                                           5




www.oig.dhs.gov                                                    28                                                               DD-12-17
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security


                                                                                                                     EXHIBIT B

                                     Management Comments to the Draft Report




                  FEMA Res ponse: FEMA disagrees with this recommendat ion. Please see our response to
                  Recommendation #1. FEMA maintains its dcternlination regarding the facility' s eligibi lity for
                  replacement is accurate and consistent with applicable regulations and policies. FEMA's cost
                  estimates are fully supported by technical expert ise, and third party verification that the ABE
                  building satisfies the 50% Rule, consistent with FEMA regulations and policy.


                  FEMA considers all findings resolved and closed and corrective actions completed. Again, we thank
                  you for the opportunity to provide comments co ncerning this report. Please coniact Brad Shefka.
                  FEMA's Chief Audit Liaison at 202-646- 1308, regarding further questions or concems.

                  Enclosures
                  Cc:    Brad Shefka, FEMA HQ Audit Liaison




                                                                     6




www.oig.dhs.gov                                              29                                                       DD-12-17
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


                                                                                                                   EXHIBIT B

                                 Management Comments to the Draft Report



                                                     Ta ble of Attac hments


                  A. December 2008 50% Rule calculation documcntation.

                  B. January 2009 Memo from FEMA to University, notifying University of FEMA ' s "50%
                     Rule" detcnninations for each building.

                  C. June 2011 PWs for ABE (# 1587) and HYC (# 10367).

                  D. July 31, 2009 Iowa Department of N atural Rcsources determination of "substantial damage"
                     letter.

                  E. January 4, 20 12 Iowa Department of Natural Resources market value appraisal lener.

                  F. Hancher Voxman-Clapp Repair and Protection Estimate, Neumann Monson (November
                     20 11 ).

                  G. University of Iowa Art Building Complex Flood Repair & Flood Protection Study &
                     Estimate, INVIS ION Architects (November 20 1 I).

                  H. FEMA Region VIrs cost effective analysis pertaining to the relocation of HVC, completed
                     Ju ly 29, 2010.

                  1.   FEMA Region VII 's permanent relocati on approval letter for HVC, signed August 5, 20 10.

                  1.   FEMA Region VlJ' s cost effective analysis pertaining to the relocation of ABE, completed
                       September 2, 20 I O.

                  K. FEMA Region VIrs permanent relocation approval letter for ABE, signed September 30,
                     2010.

                  L. FEMA Region VU ' s Draft Guidance for Applying the 50% Rule.




                                                                7




www.oig.dhs.gov                                          30                                                         DD-12-17
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                                                             EXHIBIT C


                                      Report Distribution List
                                 University of Iowa, Iowa City, Iowa
                                 FEMA Disaster Number 1763-DR-IA


   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison. FEMA Region VII
   Audit Liaison, FEMA (Job Code G-11-050)

   Grantee

   Administrator, Iowa Homeland Security and Emergency Management Division

   State

   Iowa State Auditor

   Subgrantee

   Senior Vice President, University of Iowa




www.oig.dhs.gov                                31                             DD-12-17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
